DONNIE R. COX
Attorney at Law
11440 W. Bernardo Court, Suite 300
San Diego, CA 92127
Telephone: (760) 400-0263

Fax: (760) 400-0269

August 18, 2021
Supreme Court of the United States
Office of the Clerk
Washington, DC 90543-0001
Re:

Caitlin McCann, et al. v. Sheila Garcia, et al.
No. 20-1592

To the Clerk of the Supreme Court of the United States:
Pursuant to the Rules of the Supreme Court of the United States, Rules 15.3 and 30.4, Plaintiffs
and Respondents Sheila Garcia, Cassandra Garcia, and C.N.G. and C.J.G. (minors, by and
through their Guardian ad litem, Donald Walker) hereby request a 60-day extension of time to
file their response to the petition for a writ of certiorari filed in the above case.
Respondents’ counsel who is primarily responsible for appellate research and writing, Paul W.
Leehey, has been unable to work since approximately July 28, 2021 due to long-haul COVID
symptoms. Respondents’ counsel require additional time to allow Mr. Leehey to recover or
otherwise associate counsel with experience in analyzing and preparing briefs for the Supreme
Court.
Petitioners do not oppose this request.
Very truly yours,
LAW OFFICE OF DONNIE R. COX

DONNIE R. COX, Esq.
cc:

Jeffrey Patrick Michalowski

